Rule 33.1(h) Certificate of Compliance
No.20-1066

ASHLYN HOGGARD,
Petitioner,
v.
RON RHODES, ET AL.,
Respondents.
I certify that the BRIEF OF AMICUS CURIAE CENTER FOR AMERICAN
LIBERTY IN SUPPORT OF PETITIONER in the above entitled case complies with
the typeface requirement of Supreme Court Rule 33.1(b), being prepared in new
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief
contains 2,649 words, excluding those parts of the document exempted by Rule
33.1(d).

March 8, 20201

/s Mark Meuser_______
MARK MEUSER
Counsel of Record
Dhillon Law Group
117 Post Street, Suite 700
San Francisco, CA 94108
415-433-1700
mmeuser@dhillonlaw.com
Counsel for Amicus Curiae

